July 27, 2001

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 Audit Report - Bulk Fuel Purchase Plan
          (Report Number TR-AR-01-004)

This report presents the results of our assessment of the Postal Service’s Bulk Fuel
Purchase Plan (Project Number 00NA007TR000). The report responds to concerns
expressed by the Chairman of the former Subcommittee on the Postal Service about
the Bulk Fuel Purchase Plan. Our objectives were to determine whether the plan is the
most effective means of managing diesel fuel costs for the Postal Service, cost
avoidance projections were reasonable, and the plan had a negative impact on the
highway contractors and ultimately on the carrier-route transportation system.

The audit disclosed that the Postal Service did not implement the most cost effective
fuel management plan. Specifically, we determined that the Postal Service could save
an additional $15.9 million over 5 years by bringing the fuel program “in-house.”
Additionally, the audit disclosed that the Postal Service’s cost avoidance estimates were
reasonable, and, overall, the Bulk Fuel Purchase Plan has not had a negative impact on
highway contractors or the carrier-route transportation system.

We recommended Postal Service management bring the fuel program “in-house” by
installing automated integrated fuel tracking systems at Postal Service fuel facilities,
directly purchasing fuel from suppliers, and direct highway contractors without fuel
facilities to obtain fuel from the Postal Service. Additionally, we recommended the
Postal Service install fuel stations at high-volume facilities and establish a centralized
fuel management unit. Management’s comments and our evaluation of these
comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 through 5
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Maria Longley, acting director, Transportation,
at (312) 601-3905, or me, at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: Patrick R. Donahoe
   J. Dwight Young

   Anthony M. Pajunas 

   John R. Gunnels

Bulk Fuel Purchase Plan                                            TR-AR-01-004



                            TABLE OF CONTENTS

Executive Summary
                                                     i

Part I

Introduction 
                                                        1

   Background                                                         1

   Objectives, Scope, and Methodology                                 3

   Prior Audit Coverage                                               5


Part II

Audit Results                                                         6


   Bulk Fuel Purchase Plan’s Cost Effectiveness                       6

      Centralized Fuel Management Unit                                7

   Recommendations                                                    8
   Management Comments                                                8

   Evaluation of Management Comments                                  8


   Projected Fuel Cost Avoidance                                      11 


   Impact on Highway Contractors                                      12 


Appendix A. Data Reliability Methodology                              15 

Appendix B. Using Postal Service Fuel Facilities to Fuel Highway      17 

            Contractor Vehicles 

Appendix C. Fuel Facility Installation - Savings Methodology          20

Appendix D. Management’s Comments                                     22 





                                   Restricted Information
Bulk Fuel Purchase Plan	                                                                             TR-AR-01-004




                                      EXECUTIVE SUMMARY
    Introduction 	                 This report presents our assessment of the Postal Service’s
                                   Bulk Fuel Purchase Plan as requested by the Chairman of
                                   the former Subcommittee on the Postal Service. The
                                   Chairman requested that we review the program to
                                   determine if the Bulk Fuel Purchase Plan is the most
                                   effective means of managing fuel costs, and if the mandatory
                                   inclusion in the Bulk Fuel Purchase Plan would harm smaller
                                   highway contractors. Further, the chairman requested we
                                   determine if the program had a negative impact on highway
                                   contractors, and would adversely affect the Postal Service’s
                                   carrier-route transportation system. The objectives of our
                                   audit were to determine (1) if the Bulk Fuel Purchase Plan is
                                   the most effective means of managing diesel fuel costs for
                                   the Postal Service, (2) whether the Postal Service’s cost
                                   avoidance projections were reasonable, and (3) the impact
                                   that the Bulk Fuel Purchase Plan had on highway contractors
                                   and ultimately on the carrier-route transportation system.

    Results in Brief	              Our audit revealed that the Postal Service did not implement
                                   the most cost effective fuel management plan. The Postal
                                   Service could save an additional $15.9 million over 5 years
                                   by bringing the fuel program “in-house.” Specifically, the
                                   Postal Service could save approximately $13.7 million by
                                   purchasing fuel directly and providing it to 60 existing Postal
                                   Service fuel facilities for use by highway contractors and
                                   Postal Service-owned vehicles. Additionally, the Postal
                                   Service could save another $2.2 million by installing fuel
                                   facilities at ten high-volume1 locations. According to Postal
                                   Service managers, such actions had not been implemented
                                   because they did not have an automated fuel tracking
                                   system or the necessary personnel to support an “in-house”
                                   fuel purchase program. In addition, fuel facility managers
                                   were reluctant to assume the increased responsibility related
                                   to fueling highway contractor-owned vehicles. Furthermore,
                                   Postal Service managers previously removed fuel tanks
                                   without considering the economic and operational impact
                                   related to the Postal Service as a whole. Implementation of


1
 We considered high-volume to include those locations that use a minimum of one million gallons of diesel fuel per
year.



                                                         i
                                              Restricted Information
Bulk Fuel Purchase Plan                                                         TR-AR-01-004




                          an “in-house” fuel program would allow the Postal Service to
                          negotiate more competitive fuel prices and maximize
                          potential savings.

                          Our audit further disclosed that the effectiveness of the
                          Postal Service’s Bulk Fuel Purchase Plan is impacted by the
                          absence of a unit dedicated solely to the strategic planning,
                          management, purchase, and distribution of fuel. According
                          to Postal Service management, a centralized unit has not
                          been established because of the decentralized management
                          approach espoused by the Postal Service and
                          management’s lack of attention to the fuel volume purchased
                          or the potential benefits of a centralized program. The
                          decentralized structure and lack of knowledge of industry
                          trends have kept the Postal Service from taking full
                          advantage of fuel saving opportunities.

                          Additionally, our audit disclosed the Postal Service’s Bulk
                          Fuel Purchase Plan cost avoidance projections were
                          reasonable. Specifically, the Postal Service’s fuel purchase
                          program, which uses highway contractor-owned fuel
                          facilities, should realize the $18 million in projected cost
                          avoidance.

                          Overall, the Bulk Fuel Purchase Plan has not had a negative
                          impact on highway contractors or the carrier-route
                          transportation system. While our audit disclosed some
                          individual concerns expressed by the highway contractors,
                          we found the program did not have an adverse effect on
                          contractor satisfaction, delays at host fueler pumps, fuel
                          quality, host fueler indemnification related to nonpayment, or
                          administrative and personnel costs.

 Summary of               We recommend the vice presidents of Purchasing and
 Recommendations          Materials and Network Operations Management bring the
                          fuel program “in-house” by installing automated integrated
                          fuel tracking systems at Postal Service fuel facilities, directly
                          purchasing fuel from suppliers, and directing highway
                          contractors without fuel facilities to obtain fuel from the
                          Postal Service. Additionally, we recommend the Postal
                          Service install fuel stations at high-volume facilities and
                          establish a centralized fuel management unit.




                                             ii
                                  Restricted Information
Bulk Fuel Purchase Plan                                                       TR-AR-01-004




 Summary of               Management agreed with our findings and
 Management ‘s            recommendations. Specifically management stated they
 Comments                 would conduct additional analysis to determine the full
                          financial impact of installing automated integrated fuel
                          tracking systems at each of the 60 locations identified,
                          establish a process for obtaining fuel through direct
                          purchase, and work with Postal Service managers and
                          highway contractor’s to transition to a direct fuel
                          environment. Management also stated it would perform cost
                          benefit analysis and, as appropriate, install fuel facilities at
                          high volume Postal Service locations, and perform an
                          analysis to determine final staffing and funding requirements.
                          Management’s comments in their entirety are included in
                          Appendix D of this report.

 Overall Evaluation of    Management’s comments were generally responsive to our
 Management’s             findings and recommendations. However, the cost
 Comments                 avoidance associated with recommendation 3 is dependent
                          on implementation of recommendation 1. Therefore, due to
                          the alternate action planned by Postal Service management
                          related to recommendation 1, the analysis results related to
                          installation of the automated integrated fuel tracking system
                          should be provided for our review prior to implementation of
                          recommendation 3. Additionally, in response to a question
                          raised by the Board of Governors relating to
                          recommendation 4, the Postal Service should include in their
                          proposed analysis a feasibility study to determine whether
                          the use of state owned fuel facilities would be more
                          beneficial then installing fuel facilities at high volume Postal
                          Service locations.




                                            iii
                                  Restricted Information
Bulk Fuel Purchase Plan	                                                                                TR-AR-01-004




                                              INTRODUCTION
    Background                      The Postal Service uses more then 200 million gallons of
                                    diesel fuel per year, making it one of the largest consumers
                                    of fuel in the United States. In fiscal year 2000, the Postal
                                    Service’s highway diesel fuel expense exceeded
                                    $368 million, representing 17.5 percent of the annual
                                    amount spent on highway contracts. Historically, the
                                    Postal Service has used a number of different approaches
                                    to purchase fuel.2

                                    In 1998, the Postal Service addressed two major issues
                                    related to fuel. The first issue related to compliance with
                                    the Environmental Protection Agency’s requirement for
                                    leak detection and prevention for all underground storage
                                    tanks. The second issue dealt with how to minimize the
                                    impact of escalating fuel costs to the Postal Service.

                                    In an effort to comply with the Environmental Protection
                                    Agency’s 1998 requirements, the Postal Service developed
                                    policies and guidance related to compliance with federal,
                                    state, and local environmental laws governing underground
                                    storage tank systems and administration. Additionally,
                                    Postal Service area managers were requested to provide
                                    recommendations for underground storage tank removal or
                                    upgrade in accordance with developed guidance. In an
                                    effort to comply with the Environmental Protection
                                    Agency’s 1998 requirements, the Postal Service removed
                                    114 of 249 vehicle diesel underground storage tanks.

                                    To minimize fuel costs, the Postal Service considered a
                                    number of fuel purchasing and delivery strategies that
                                    could significantly reduce the cost per gallon of fuel and
                                    leverage the Postal Service’s purchasing power. The
                                    following options were considered:

                                    •	 Negotiate agreements with major fuel suppliers for the
                                       Postal Service and its contract transportation suppliers
                                       (host fuelers) to jointly purchase fuel at both retail
                                       facilities (for over-the-road operations) and bulk drops
                                       to fuel local operations.

2
 The Postal Service purchases fuel through agreements with the Defense Logistics Agency, local service stations,
and contractors for on-site fueling of Postal Service vehicles. In addition, the Postal Service pays a large number of
highway contractors and air transportation suppliers for fuel expenses as “pass-through costs.”



                                                          1
                                               Restricted Information
Bulk Fuel Purchase Plan	                                                                       TR-AR-01-004




                                 •	 Purchase fuel directly for highway contractors and
                                    Postal Service vehicle routes originating at or near
                                    Postal Service-owned fuel facilities and contract for fuel
                                    at highway contractor host fueler facilities.

                                 •	 Purchase fuel directly and provide it to both highway
                                    contractor host fuel facilities and Postal Service-owned
                                    fuel facilities.

                                 In November 1998, the Postal Service initiated the first
                                 option—the “Bulk Fuel Purchase Plan Pilot.” The intent of
                                 the plan was to provide the highest quality fuel at the best
                                 price. The pilot program allowed highway contractors with
                                 their own fuel storage facilities to become "host fuelers"
                                 and to develop independent relationships with fuel
                                 suppliers. While the Postal Service did not have direct
                                 purchase authority, it served as a conduit for host fuelers
                                 by prenegotiating wholesale prices with fuel suppliers.
                                 Host fuelers were then able to buy fuel from a sole supplier
                                 at a discounted rate and resell it to highway contractors
                                 and the Postal Service at prices below prevailing rates in
                                 the area. The host fueler received a 7-cent per gallon
                                 markup to cover pumping and other expenses.

                                 At a congressional hearing on October 21,1999,3 the
                                 Postal Service reported fuel pilot program savings of
                                 approximately $6 million.

                                 Additionally, the Postal Service reported,

                                     “The pilot program has demonstrated conclusively that
                                     the savings are available and projectable throughout
                                     the entire Postal system. As the program is expanded
                                     to include 75 percent of the postal contractor diesel fuel
                                     gallons purchased, fuel savings will increase from
                                     $6 million to $18 million per year.”

                                 The Bulk Fuel Purchase Plan Pilot was completed in
                                 April 2000. After the review of the pilot plan results, the
                                 Postal Service began implementation of the Bulk Fuel
                                 Purchase Plan. The Postal Service’s implementation
                                 included a phased approach. Specifically, the United
3
 Hearing before the former Subcommittee on the Postal Service of the Committee on Government Reform, House of
Representatives, First Session.



                                                      2
                                           Restricted Information
Bulk Fuel Purchase Plan                                                                               TR-AR-01-004



                                   States was divided into five areas. The Postal Service
                                   awarded the contract for the first area (the eastern
                                   seaboard) on September 21, 2000,4 with an effective date
                                   of November 2000. Solicitations have been obtained for
                                   the remaining four areas. However, as of March 21, 2001,
                                   the contracts had not been awarded.

    Objectives, Scope,             The objectives of our audit were to determine:
    and Methodology
                                   1.	 If the Bulk Fuel Purchase Plan is the most effective
                                       means of managing diesel fuel costs.

                                   2.	 Whether the Postal Service’s cost avoidance
                                       projections were reasonable.

                                   3.	 If the Bulk Fuel Purchase Plan had a negative impact
                                       on the highway contractors and the carrier-route
                                       transportation system.

                                   We reviewed documentation for the period 1997 through 

                                   December 2000 related to planning and implementation of

                                   the Bulk Fuel Purchase Plan. Our audit included a review

                                   of diesel-operated highway contract routes nationwide. We

                                   conducted work at Postal Service Headquarters, the 

                                   National Mail Transportation Purchasing Office, and the 

                                   Southwest Area Distribution Network Office. 


                                   We obtained evidence through systems/data retrievals, 

                                   analytical analyses, site visits, surveys, and interviews. We

                                   also reviewed applicable laws and regulations.

                                   Specifically, to accomplish our objectives, we: 


                                   •	 Reviewed 7,398 of the 7,455 highway contract routes.5
                                      In analyzing the 7,398 routes, we determined
                                      1,016 routes originated at or near Postal Service fuel
                                      facilities and highway contractors who owned their own
                                      fuel facilities operated 316 routes. We analyzed the
                                      remaining 6,066 highway contract routes to determine
                                      the cost effectiveness of installing Postal Service­
                                      owned fuel facilities at key locations based on volume.



4
  Contract Number 483083-01-B-0032. 

5
  We excluded the 57 routes in Puerto Rico and the Virgin Islands because the Postal Service did not include them in 

their Bulk Fuel Purchase Plan.




                                                         3
                                              Restricted Information
Bulk Fuel Purchase Plan	                                                    TR-AR-01-004




                           •	 Reviewed and analyzed selected data related to diesel
                              operated highway contract routes from the Postal
                              Service Highway Contract Support System, Facilities
                              Management System, and various stand-alone Excel
                              spreadsheets provided by Postal Service personnel.
                              We also interviewed key Postal Service personnel,
                              various highway contractors, independent fuel
                              suppliers, environmental experts, and officials of the
                              National Star Route Mail Contractors’ Association.

                           •	 Reviewed the following Postal Service guidance: Fleet
                              Management Handbook, PO-701, March 1991;
                              Management Instruction Highway Contracts –
                              Negotiated Service Changes, PO-530-83-5,
                              November 1983; and Management Instruction,
                              Economic Pay Adjustments for Highway and Inland
                              Domestic Water Contracts, PO-530-97-1, April 1997. In
                              addition, we reviewed the Code of Federal Regulations,
                              Title 39, July 2000; and the postmaster general’s
                              testimony at the October 21, 1999, Oversight Hearing
                              before the Subcommittee on the Postal Service, House
                              Committee on Government Reform.

                           This audit was conducted from July 2000 through
                           July 2001 in accordance with generally accepted
                           government auditing standards and included tests of
                           internal controls as were considered necessary under the
                           circumstances. We relied on computer-generated data
                           obtained from the Highway Contract Support System and
                           the Facilities Management System. A general and
                           applications control audit has not been performed on either
                           of these systems. However, we statistically tested
                           individual data elements to source documents to verify data
                           reliability as described in Appendix A.

                           On the basis of these tests, we believe the computer­
                           generated data was sufficiently reliable to support the
                           opinions, conclusions, and recommendations in this report.
                           We discussed our findings with management officials and
                           included their comments, where appropriate.




                                              4
                                   Restricted Information
Bulk Fuel Purchase Plan                                                     TR-AR-01-004




 Prior Audit Coverage     Our September 30, 1999, report, Removal of Underground
                          Storage Tanks, report number CA-AR-99-002, disclosed
                          that Postal Service management removed compliant
                          underground storage tanks without conducting a cost­
                          benefit analysis and used commercial fueling as an
                          alternative. In addition, the Postal Service did not verify
                          data before it was entered in the Facilities Management
                          Systems-Window and Environmental Management
                          Information System. Management agreed and has taken
                          corrective action to improve the process for validating and
                          ensuring accurate information. Management also agreed
                          to reemphasize and strengthen existing policy outlined in
                          Postal Service management instructions on underground
                          storage tanks when future decisions involve installation,
                          replacement, or removal of tanks.

                          Our March 31, 1998, report on Fuel Test Implementation
                          and Environmental Compliance, report number
                          CA-MA-98-001, disclosed that the Postal Service did not
                          have written guidelines for testing motor vehicle fuels for
                          quality to ensure compliance with specifications. The
                          Postal Service used a prohibited fuel blend during a
                          regulatory control period. Management agreed and has
                          taken action to implement a quality-testing program and to
                          comply with applicable Environmental Protection Agency
                          laws governing fuel blend regulations.




                                             5
                                  Restricted Information
Bulk Fuel Purchase Plan                                                                                  TR-AR-01-004



                                             AUDIT RESULTS
    Bulk Fuel Purchase              The Postal Service did not implement the most cost
    Plan’s Cost                     effective fuel management plan. Our audit disclosed that a
    Effectiveness                   more cost effective fuel management plan would be for the
                                    Postal Service to implement a combination of the current
                                    Bulk Fuel Purchase Plan and an “in-house” fuel program.
                                    Specifically, we concluded the Postal Service could save
                                    $15.9 million over 5 years by utilizing existing Postal
                                    Service-owned fuel facilities and installing fuel facilities at
                                    other high-volume locations. These savings would be in
                                    addition to the $18 million cost avoidance already projected
                                    by the Postal Service for the Bulk Fuel Purchase Plan.

                                    The Postal Service could eliminate the 7-cent per gallon
                                    pumping fee and save $13.7 million by purchasing fuel
                                    directly and providing it to those highway contractors who
                                    do not have their own fuel facilities for routes originating at
                                    or near a Postal Service fuel facility.6 To accomplish these
                                    savings, the Postal Service would need to install automated
                                    fuel tracking systems at each of the 60 identified locations
                                    (see Appendix B).7 In addition, the Postal Service could
                                    save another $2.2 million by installing fuel facilities, with
                                    automated fuel tracking systems, at ten high volume
                                    locations and requiring highway contractors to obtain fuel
                                    from those fuel facilities (see Appendix C).8

                                    According to Postal Service personnel, they had not
                                    implemented this cost savings approach because the Postal
                                    Service did not have an automated fuel tracking system or
                                    the personnel necessary to support an “in-house” fuel
                                    purchase program. Fuel facility managers were also
                                    reluctant to assume the increased responsibility related to
                                    fueling highway contractor vehicles.




6
  This change would allow the continued utilization of contractor-owned fuel storage facilities for those contractors
who have their own tanks.
7
  The automated fuel tracking system accounts for fuel usage by various measurement indices, including contract
number, contractor, location, type of fuel, brand of fuel, driver, etc. Such a system might use cards, keys, codes, or
other identity-confirming mechanisms. The estimated cost is $15,000 per location.
8
  As addressed in our September 30, 1999, report, Removal of Underground Storage Tanks, report number
CA-AR-99-002, the Postal Service needs to install fuel facilities at four of the ten locations because it did not
adequately perform or document cost-benefit analyses or consider the economic and operational impact related to
the Postal Service as a whole before removing tanks.



                                                          6
                                               Restricted Information
Bulk Fuel Purchase Plan                                                                                   TR-AR-01-004




 Centralized Fuel                   The Postal Service has not established a centralized unit
 Management Unit                    dedicated to the purchase, distribution, strategic planning,
                                    and management of fuel. Our review disclosed that other
                                    major fuel consumers,9 including the Postal Service’s major
                                    competitors, have a centralized unit responsible for
                                    obtaining the best possible fuel pricing. The unit usually
                                    includes approximately 12 positions related to accounts
                                    payable, internal review, as well as analysts proficient in
                                    current fuel trends, hedging, and subscriptions,10 a
                                    contracting specialist, and a manager.

                                    While the Postal Service’s current fuel management
                                    program includes some of the positions normally associated
                                    with a fuel management unit (i.e. contract specialists, an
                                    accounts payable clerk, a contracted industry specialist, and
                                    management oversight), the decentralized structure and
                                    lack of expertise related to industry trends has kept the
                                    Postal Service from taking full advantage of fuel saving
                                    opportunities. While no specific cause could be identified,
                                    Postal Service management stated this condition occurred
                                    because of the decentralized management approach
                                    espoused by the Postal Service and management's lack of
                                    attention to the fuel volume purchased or the potential
                                    benefits of a centralized program. Given the significance of
                                    the Postal Service’s fuel purchases, it is incumbent on the
                                    Postal Service to achieve the best fuel pricing and apply
                                    industries “best practices,” which would include
                                    establishment of a centralized unit dedicated to fuel
                                    management.

                                    As a result of ongoing discussions with Postal Service
                                    officials, including an interim status briefing on January 26,
                                    2001, the Postal Service engaged a public accounting firm
                                    on January 31, 2001, to assist in the preparation of a
                                    business plan. The Fuel Management Business Plan was
                                    issued in March 2001.11 Among other things, the report
                                    supported the need for a centralized fuel management unit.




9
   Other major fuel consumers included Penske, Ryder Systems Incorporated, and United Parcel Service.
10
   Because of the technical expertise required of the analysts, the Postal Service might need to fill these positions
from private industry.
11
   The Fuel Management Business Plan was based on data developed by the Postal Service and conclusions
reached within National Mail Transportation Purchasing.



                                                           7
                                                Restricted Information
Bulk Fuel Purchase Plan	                                                      TR-AR-01-004




                           Implementation of an “in-house” fuel program and a
                           centralized fuel management unit would allow the Postal
                           Service to negotiate a more competitive fuel price and
                           maximize potential savings. Furthermore, an “in-house” fuel
                           program would lessen the competitive advantage achieved
                           by the larger highway contractors, who have their own fuel
                           facilities, by eliminating the 7-cent per gallon markup
                           currently paid by the smaller highway contractors.

 Recommendation            We offer the following recommendations:

                           The vice president of Purchasing and Materials and the vice
                           president of Network Operations Management should:

                           1.	 Require the installation of an automated integrated fuel
                               tracking system at each of the 60 locations identified.

 Management’s              Management agreed with our finding and recommendation.
 Comments                  They stated they would conduct an analysis to determine
                           the full financial impact versus benefits of installing the
                           automated integrated fuel tracking system. The expected
                           completion date for the analysis is August 31, 2001.

 Evaluation of             Management’s comments were generally responsive to our
 Management’s              findings and recommendations. However, because the cost
 Comments                  avoidance calculated in Appendix B of this report is
                           dependent on the automated integrated fuel tracking system
                           installation, we request they provide for our review proposed
                           analysis results related to the installation of the automated
                           integrated fuel tracking system prior to implementation of
                           recommendation 3. Further, personnel costs associated
                           with using Postal Service employees or contract personnel
                           to provide fuel to highway contractors instead of installing
                           an automated fuel tracking system would negate any
                           potential savings, associated with using Postal Service fuel
                           facilities, indicated in recommendation 3.




                                              8
                                   Restricted Information
Bulk Fuel Purchase Plan	                                                            TR-AR-01-004




 Recommendation            2.	 Establish a process for obtaining fuel through direct
                               purchase to maximize fuel savings for Postal Service
                               and highway contract vehicles.

 Management’s 	            Management agreed with our finding and recommendation.
 Comments 	                They stated they would work with their suppliers and Postal
                           Service managers to transition to a direct fuel-purchasing
                           environment. The expected completion date is March 29,
                           2002.

 Evaluation of             Management’s comments were responsive to our finding
 Management’s              and recommendation. We believe the actions taken and
 Comments                  planned should correct the issues identified in our report.

 Recommendation            3.	 Direct highway contractors who do not have their own
                               fuel facilities and whose routes originate at or near a
                               Postal Service fuel facility to obtain fuel at that facility.

 Management’s              Management agreed with our finding and recommendation.
 Comments                  They stated they would work with their suppliers to develop
                           additional consensus and make the change to fuel highway
                           contractors at Postal Service fuel facilities. The expected
                           completion date is November 28, 2001.

 Evaluation of             Management’s comments were responsive to our finding
 Management’s              and recommendation. We believe the actions taken and
 Comments                  planned should correct the issues identified in our report.

 Recommendation            4. Perform cost benefit analyses and, as appropriate, install
                              fuel facilities at high volume Postal Service locations.

 Management’s              Management agreed with our finding and recommendation.
 Comments                  They stated they would perform additional analysis to
                           determine the needed data to support a Decision Analysis
                           Report and management approval. The expected
                           completion date for the additional analysis is January 25,
                           2002.

 Evaluation of             Management’s comments were generally responsive to our
 Management’s              findings and recommendations. However, due to an issue
 Comments                  raised by the Postal Service’s Board of Governors related to




                                               9
                                    Restricted Information
Bulk Fuel Purchase Plan                                                        TR-AR-01-004




                          recommendation 4, to meet the intent of this
                          recommendation the Postal Service should include in its
                          proposed analysis a feasibility study. This study should
                          determine whether the use of state owned fuel facilities
                          would be more beneficial then installing fuel facilities at high
                          volume Postal Service locations.

 Recommendation           5. Establish a centralized fuel management unit dedicated
                             to obtaining optimum fuel pricing.

 Management’s             Management agreed with our finding and recommendation.
 Comments                 They stated they would perform additional analysis to
                          determine final staffing and funding requirements.
                          Additionally, Postal Service stated staffing and funding of
                          this unit will be subject to management review and
                          determined by the resources available at the conclusion of
                          the analysis. The expected completion date for the analysis
                          is August 29, 2001.

 Evaluation of            Management’s comments were responsive to our finding
 Management’s             and recommendation. We believe the actions taken and
 Comments                 planned should correct the issues identified in our report.




                                            10
                                  Restricted Information
Bulk Fuel Purchase Plan                                                                                TR-AR-01-004




 Projected Fuel Cost                Our audit disclosed the Postal Service’s projected fuel cost
 Avoidance                          avoidance of $18 million was reasonable.12 While the
                                    Postal Service did not initially maintain adequate
                                    documentation to validate actual fuel prices and associated
                                    savings, during the audit, the Postal Service developed a
                                    savings calculation methodology that reasonably
                                    approximates its fuel cost avoidance. The methodology
                                    involves comparing diesel fuel prices listed by major fuel
                                    indices to fuel contract costs, adjusted for inflation. Fuel
                                    cost savings computed using this methodology were 12­
                                    cents per gallon.13 Based on our conclusion that the Postal
                                    Service’s projected fuel cost avoidance was reasonable, no
                                    recommendations are necessary.




12
   The $18 million fuel cost avoidance was calculated by multiplying 200 million gallons of fuel times 12-cents per
gallon times 75 percent of highway contractors. We assumed that annual diesel fuel consumption would remain
constant and the Bulk Fuel Purchase Plan would achieve 75 percent participation.
13
   While implementation of the Bulk Fuel Purchase Plan would result in a 12-cent per gallon fuel cost avoidance, it
may not result in an actual 12-cent per gallon overall savings to the Postal Service. Since the Postal Service allowed
highway contractors to realign contract costs prior to contract renewal, an undeterminable amount of potential
savings may be offset by an increase in highway contractor operational costs.




                                                         11
                                               Restricted Information
Bulk Fuel Purchase Plan	                                                      TR-AR-01-004




 Impact on Highway	        The Bulk Fuel Purchase Plan has not had a negative impact
 Contractors 	             on highway contractors. As previously mentioned, the
                           Chairman of the former Subcommittee on the Postal Service
                           was concerned that the Bulk Fuel Purchase Plan may have
                           a negative impact on highway contractors and adversely
                           affect the carrier-route transportation system. To address
                           his concerns, we performed work in the following areas:

                           •	 Highway Contractor Satisfaction – We surveyed all
                              30 highway contractors who participated in the Bulk Fuel
                              Purchase Plan Pilot. Of the 30 highway contractors
                              surveyed, 24 stated they had not been harmed by
                              participation in the Bulk Fuel Purchase Plan.
                              Additionally, 21 of 30 contractors interviewed believed
                              the Postal Service should have a bulk fuel purchase
                              program. Although highway contractors expressed
                              overall satisfaction with the Bulk Fuel Purchase Plan, a
                              number of contractors expressed concerns related to
                              two issues--adjustment reimbursement delays and
                              increased administrative cost associated with weekly
                              fuel billings and payments. Specifically:

                              •	 Discussions with Postal Service personnel confirmed
                                 highway contractors’ concerns regarding adjustment
                                 reimbursement delays. Our review disclosed an
                                 adjustment payment backlog of up to 8 months. The
                                 backlog occurred primarily due to systems problems
                                 and emphasis on other Postal Service priorities.
                                 During the audit, Postal Service personnel took
                                 action to correct the systems problems and to reduce
                                 the backlog.

                              •	 Prior to our audit, the Postal Service recognized the
                                 burden weekly fuel payments were having on
                                 highway contractors. Therefore, while the host
                                 fuelers continued weekly billings, the highway
                                 contractors were only required to pay monthly.

                           •	 Delays at Host Fueler Pumps – We visited the initial pilot
                              program site on two occasions and did not identify any
                              backlog at that location. Further, we performed a week­




                                             12
                                   Restricted Information
Bulk Fuel Purchase Plan	                                                                             TR-AR-01-004



                                       long fuel pump activity analysis at two of the three14 pilot
                                       program locations. Our analyses disclosed no backlog.
                                       Further, only one of the highway contractors surveyed
                                       expressed a concern related to fuel pumping delays.

                                   •	 Fuel Quality – On August 14, 2000, the Postal Service
                                      was notified by two highway contractors that the fuel
                                      obtained from the host fueler contained water. The
                                      Postal Service took immediate action to have the fuel
                                      tested. On August 23, 2000, the Postal Service received
                                      the requested fuel quality report that stated the
                                      contractor was unable to detect the presence of water at
                                      the host fueler facility. Despite the lack of an identified
                                      problem, on February 12, 2001, the Postal Service had
                                      fuel filter separators installed to ensure the continued
                                      quality of fuel at this location. While there is always a
                                      potential to receive bad fuel, we found no reason to
                                      believe host fuelers were at any higher risk than retail
                                      fuel operations. Further, we concluded that actions
                                      taken by the Postal Service were timely and appropriate.

                                   •	 Host Fueler Indemnification – Concerns were expressed
                                      regarding recourse available to host fuelers if highway
                                      contractors default on fuel payments. Since the contract
                                      between the Postal Service and highway contractors
                                      provides for remedy to the host fueler, we concluded the
                                      risk to the host fuelers was minimal. Specifically, the
                                      contract allows the Postal Service to deduct the amount
                                      of the overdue payment plus any late charges, interest
                                      charges, and Postal Service administrative costs from
                                      the contractor’s compensation in the event the
                                      contractor’s payment is not made in a timely manner.

                                   •	 Administrative and Personnel Costs – The
                                      congressman’s concern was that highway contractors
                                      “may be required to fuel the vehicles of others
                                      participating in the program.” Additionally, the Bulk Fuel
                                      Purchase Plan “may require additional personnel and
                                      administrative costs in order to accommodate increased
                                      fueling operations and management of the program.”
                                      Our review disclosed participation, as a host fueler, was
                                      voluntary. Furthermore, to cover the additional

14
 Fuel pump activity reports were received from the Dallas, Texas, and Jacksonville, Florida, locations. However, the
Memphis, Tennessee, host fueler did not provide the fuel pump activity analysis despite repeated requests.



                                                        13
                                              Restricted Information
Bulk Fuel Purchase Plan                                                      TR-AR-01-004



                             personnel and administrative costs associated with
                             being a host fueler, the Postal Service established a
                             pumping fee of 7-cents per gallon payable to the host
                             fueler. The Postal Service continues to review this fee
                             for adequacy and to make adjustments where
                             appropriate.

                          While our review disclosed some individual concerns
                          expressed by the highway contractors related to
                          participation in the Bulk Fuel Purchase Plan, our review did
                          not disclose an adverse effect on the carrier-route
                          transportation system overall. As a result, no
                          recommendations are required.




                                            14
                                  Restricted Information
Bulk Fuel Purchase Plan                                                         TR-AR-01-004



                                     APPENDIX A
                          DATA RELIABILITY METHODOLOGY


Purpose and Limitations of the Sampling

The bulk fuel audit involved the use of two Postal Service databases, for which the audit
team tested the data reliability. We emphasize that this testing pertains only to the
items specific to the bulk fuel audit and should in no way be interpreted as an overall
reliability assessment of either database.

Definition of the Universe Tested

The universe being tested for data reliability consisted of information in two separate
databases: the Facilities Management System and the Highway Contract Support
System. The Financial Management System database contained 97 Postal Service­
owned diesel fuel facilities with capacity exceeding 8,000 gallons, which constituted the
universe for the Financial Management System data reliability testing. The Highway
Contract Support System data universe contained 7,455 highway contract route
identification numbers; those highway contract route identification numbers affected
71,067 records. The databases were not tested in their entirety; only specific fields
containing information pertaining to the audit were tested.

Sample Design

The testing of the Financial Management System database included all 97 facilities in
the audit universe and consisted of contacting the facilities to verify the accuracy of the
facility address. Six facilities no longer had fuel tanks and were eliminated from the
review. Three street address errors and 12 ZIP Code errors were found and corrected.
Therefore, the Financial Management System data used for this audit is considered
reliable; this should not be interpreted as an overall assessment of the Financial
Management System data reliability.

The testing of the Highway Contract Support System database used a simple random
sample design. The team used the Excel “randbetween” function to make a simple
random selection of 149 highway contract route identification numbers, to provide a
maximum of a 5 percent risk of over-reliance on the reliability of the database. This
sample size was based on a desired error rate of less than 5 percent and auditor
expectations of a low number of errors in the data elements of interest to the audit.




                                              15
                                    Restricted Information
Bulk Fuel Purchase Plan                                                        TR-AR-01-004



Statistical Projections of the Sample Data for the Highway Contract Support
System Reliability Test

Low error rates occurred in the sample. Because of the low error rates, we could not
use the normal approximation to the binomial to determine the precision of the
projection. We instead analyzed the sample results, for each of three separate data
elements, using the hypergeometric adaptation of the binomial attribute table for
controls testing, found in the General Accounting Office’s Financial Audit Manual.

For each of the three Highway Contract Support System data elements considered
pertinent to the audit, the team found two errors in the sample. Based on projection of
the sample results, we project that there is 5 percent risk that up to 4.2 percent of the
highway contract route identification numbers contain errors in the pertinent data
elements. We are, therefore, 95 percent certain that no more than 4.2 percent of the
highway contract route identification numbers in the Highway Contract Support System
database contain errors in the data elements examined.




                                             16
                                   Restricted Information
Bulk Fuel Purchase Plan                                                            TR-AR-01-004



                                       APPENDIX B
                 USING POSTAL SERVICE FUEL FACILITIES TO FUEL
                        HIGHWAY CONTRACTOR VEHICLES

                                   Savings Methodology

   1. Potential Savings — $13.7 million over 5 years

   2. Methodology

       a. Routes, Fuel Facilities, Pumping Fee, and Gallons
            i. We identified 1,016 highway contract routes for contractors that had no
               fuel facilities and for routes that originate at or near (within 3 miles) Postal
               Service fuel facilities.
           ii. The 1,016 routes involve 60 Postal Service diesel fuel facilities.
          iii. We assumed a 7-cent per gallon pumping fee.
          iv. There were 41,651,366 gallons of diesel fuel contracted annually for the
               1,016 highway contract routes.

       b. Fixed Costs
           i. Card Key System (60 locations x $15,000) = $900,000
          ii. Additional Administrative Costs
              1. Normal Maintenance – None, existing facility
              2. Environmental Liability – None, existing facility
              3. Personnel – None, existing facility

       c. Savings Calculation
            i. 41,651,356 gallons x $.07 pumping fee = $2,915,595 per year
           ii. $2,915,595 x 5 years = $14,577,975 savings
          iii. $14,577,975 savings - $900,000 card key = $13,677,975 net savings




                                               17
                                     Restricted Information
Bulk Fuel Purchase Plan                                                                      TR-AR-01-004



                                       APPENDIX B
                  USING POSTAL SERVICE FUEL FACILITIES TO FUEL HIGHWAY
                                 CONTRACTOR VEHICLES

          Highway Contract Routes (HCR) that Originate at or Near Postal Service
                                    Fuel Facilities

                                                                                           TOTAL
                                                           TOTAL             TOTAL          FUEL
              HEADOUT              CITY        STATE      GALLONS             HCR        FACILITIES
      PHOENIX P&DC          PHOENIX              AZ            168,221.00            1       1
      BELL                  BELL                 CA           1,383,356.52       27          1
      FRESNO P&DC           FRESNO               CA            345,806.00        14          1
      LONG BEACH P&DC       LONG BEACH           CA            200,552.00        11          1
      LOS ANGELES P&DC      LOS ANGELES          CA            837,518.00        12          1
      OAKLAND P&DC          OAKLAND              CA            975,034.40        20          1
      OXNARD P&DC           OXNARD               CA            280,105.00        14          1
      SAN FRANCISCO BMC     RICHMOND             CA           1,344,278.99       17          1
      SAN DIEGO P&DC        SAN DIEGO            CA            713,873.00        18          1
      SAN FRANCISCO P&DC    SAN FRANCISCO        CA            332,993.00            5       1
      SANTA CLARITA P&DC    SANTA CLARITA        CA            955,167.60        24          1
      DENVER BMC            DENVER               CO           1,917,612.55       16          1
      STAMFORD P&DC         STAMFORD             CT             71,363.60            2       1
      ATLANTA P&DC          ATLANTA              GA           1,345,795.14       28          1
      NORTH METRO P&DC      DULUTH               GA            130,621.51            2       1
      SOUTH SUBURBAN P&DC BEDFORD PARK            IL           370,888.94        21          1
      CAROL STREAM P&DC     CAROL STREAM          IL           285,089.65            7       1
      O’HARE AMC            CHICAGO              IL            301,851.40        15          2
      GARY P&DC             GARY                 IN            818,380.92        19          1
      INDIANAPOLIS P&DC     INDIANAPOLIS         IN            933,225.90        22          1
      SOUTH BEND P&DC (S)   SOUTH BEND           IN            339,736.94        16          1
      KANSAS CITY BMC       KANSAS CITY          KS           1,389,191.41       25          1
      LOUISVILLE P&DC       LOUISVILLE           KY           1,296,705.70       32          1
      SPRINGFIELD BMC       SPRINGFIELD          MA            774,280.94        20          1
      BALTIMORE P&DC        BALTIMORE            MD            665,503.61        13          1
      WASHINGTON DC BMC     CAPITOL HEIGHTS      MD            215,194.50            4       1
      SUBURBAN ANNEX        GAITHERSBURG         MD             90,716.30            2       1
      DETROIT BMC           ALLEN PARK           MI           1,390,838.52       23          1
      ROYAL OAK P&DC        TROY                 MI            585,225.00        18          1
      TWIN CITIES METRO HUB MINNEAPOLIS          MN            328,712.50            6       1
      ST LOUIS BMC          ST LOUIS             MO           2,539,947.67           9       1
      RALEIGH P&DC          RALEIGH              NC           1,131,836.65       30          1
      SOUTH JERSEY P&DC     BELLMAWR             NJ            639,037.06        27          1




                                               18
                                     Restricted Information
Bulk Fuel Purchase Plan                                                                      TR-AR-01-004



                                                                                           TOTAL
                                                           TOTAL             TOTAL          FUEL
              HEADOUT            CITY          STATE      GALLONS             HCR        FACILITIES
      NEW JERSEY INTL & BMC JERSEY CITY          NJ           1,547,371.81       28          1
      DOMINICK DANIELS P&DC KEARNY               NJ            351,135.11         10         1
      PATERSON P&DC         PATERSON             NJ            160,274.90        10          1
      LAS VEGAS P&DC        LAS VEGAS            NV            798,271.00         16         1
      BROOKLYN P&DC         BROOKLYN             NY             13,864.00            1       1
      BUFFALO P&DC          BUFFALO              NY           1,175,670.00        39         1
      WESTERN NASSAU P&DC GARDEN CITY            NY               9,827.00           1       1
      MID ISLAND P&DC       MELVILLE             NY             85,705.00            3       1
      ROCHESTER             ROCHESTER            NY            368,359.00        17          1
      SYRACUSE AMF          SYRACUSE             NY               4,114.00           1       1
      CLEVELAND P&DC        CLEVELAND            OH           1,110,819.00        32         1
      COLUMBUS P&DC         COLUMBUS             OH           1,239,106.10        56         1
      DAYTON METRO          DAYTON               OH            390,246.00         20         1
      TOLEDO P&DC           TOLEDO               OH            423,912.00         27         1
      PORTLAND P&DC         PORTLAND             OR            946,333.00         30         1
      SOUTHEASTERN P&DC     DEVON                PA            578,152.97         36         1
      HARRISBURG            HARRISBURG           PA            804,047.60         12         1
      PHILADELPHIA BMC      PHILADELPHIA         PA           2,867,718.18        38         2
      READING P&DC          READING              PA            472,760.00         19         1
      SCRANTON P&DC         SCRANTON             PA            236,327.00            5       1
      PROVIDENCE P&DC       PROVIDENCE           RI            516,093.50         18         1
      STATE NEWSPAPER       COLUMBIA             SC            350,279.00            1       1
      DULLES P&DC           DULLES               VA            910,599.96         19         1
      RICHMOND P&DC         RICHMOND             VA           1,004,638.34        20         1
      TOTAL                                               41,651,356.39         1016        60




                                               19
                                     Restricted Information
Bulk Fuel Purchase Plan                                                                     TR-AR-01-004



                                                    APPENDIX C
                                FUEL FACILITY INSTALLATION-SAVINGS METHODOLOGY

                                                                                 TOTAL
                                                                                POSTAL                                                    TOTAL
                                                                               SERVICE                                     TOTAL         SAVINGS
                                       TOTAL                                   VEHICLE                                    SAVINGS          OVER
                                   HCR GALLONS            PUMP FEE             GALLONS              PUMP FEE             HCR & PVS       5 YEARS
            FACILITY                 PER LINE           SAVINGS ($.07)         PER LINE           SAVINGS ($.07)          1st YEAR     (Undiscounted)
Chicago Metro Service Hub            1,064,633                74,524              15,788                1,105
Southeast HASP                       1,275,749                89,302                   ­                      -
Des Moines BMC                       1,397,734                97,841              20,707                1,449
Indianapolis Air Hub                  1,407,462               98,522              18,000                1,260
Jacksonville P&DC                    1,683,077               117,815             294,886               20,642
St Paul BMC                          1,698,998               118,930              28,619                2,003
Greensboro BMC                       1,656,949               115,986              32,335                2,263
Dallas BMC                           2,487,096               174,097             608,560               42,599
Cincinnati BMC*                      1,423,332                99,633              70,593                4,942
Chicago BMC*                         1,554,078               108,785              73,858                5,170
TOTAL                               15,649,108           $ 1,095,438**         1,163,346             $ 81,434**          $ 1,176,872    $6,100,043




*Postal Service facilities that have fuel tanks; however, tank capacity would not be sufficient to accommodate increased volume.
**Variations were due to rounding.




                                                                            20
                                                                  Restricted Information
Bulk Fuel Purchase Plan                                                                TR-AR-01-004



                                                  APPENDIX C
                               FUEL FACILITY INSTALATION SAVINGS METHODOLOGY

                                                 BULK FUEL PURCHASE PLAN
                      Net Cash Flow Analysis for Installation of Fuel Facilities at Ten High Volume Locations
FISCAL YEAR                                               2002        2003        2004       2005     2006      2007       TOTAL
PROJECT YEAR                                                  0          1            2         3        4         5
I. CAPITAL INVESTMENT
Fuel Tanks Installation                            -$1,717,300                                                         -$1,717,300
Card Key                                             -$149,690                                                           -$149,690
Pump Cost                                            -$172,000                                                           -$172,000
Island Cost                                           -$15,000                                                            -$15,000
Canopy Costs                                         -$400,000                                                           -$400,000
TOTAL CAPITAL INVESTMENT                           -$2,453,990                                                         -$2,453,990

II. EXPENSE INVESTMENT                                                                                                          0

III. OPERATING VARIANCES
Leak Detection System (escalated 1.8%)                      -$8,000    -$8,144    -$8,291    -$8,440    -$8,592           -$41,466
Leak Testing System (escalated 1.8%)                        -$1,200    -$1,222    -$1,244    -$1,266    -$1,289            -$6,220
Replace leak detection probe (escalated 1.8%)              -$10,000   -$10,180   -$10,363 -$10,550 -$10,740               -$51,833
Labor Cost (escalated 3.0%)                               -$246,080 -$253,463 -$261,067 -$268,899 -$276,966            -$1,306,475
Cost avoidance (escalated 1.8%)                          $1,176,872 $1,198,055 $1,219,620 $1,241,547 $1,263,922         $6,100,043
TOTAL OPERATING VARIANCES                                  $911,591 $925,047 $938,656 $952,419 $966,336                 $4,694,050
IV. NET CASH FLOW                             -$2,453,990 $911,591 $925,047 $938,656 $952,419 $963,336                  $2,240,060
V. RETURN ON INVESTMENT                                      26.1%
VI. NET PRESENT VALUE DISCOUNTED AT 7.5% -$2,453,990 $847,992 $800,473 $755,581 $713,172 $673,110                      $1,336,338

DECISION ANALYSIS REPORT (DAR) FACTORS - effective April 21, 2000
A.    DISCOUNT RATE                                           7.5%                             Net Cash Flow           $2,240,060
B.    ESCALATION FACTORS                                                                       Net Present Value       $1,336,338
           Postal Service work hour rate                      3.0%                             ROI                         26.1%
           All other costs                                    1.8%



                                                                        21
                                                              Restricted Information
Bulk Fuel Purchase Plan                               TR-AR-01-004



                  APPENDIX D. MANAGEMENT’S COMMENTS




                                       22
                             Restricted Information
Bulk Fuel Purchase Plan                            TR-AR-01-004




                                    23
                          Restricted Information
